                     STATEMENT OF
                     ELEANOR HILL
      INSPECTOR GENERAL, DEPARTMENT OF DEFENSE
             BEFORE THE SUBCOMMITTEE ON
             ACQUISITION AND TECHNOLOGY
             COMMITTEE ON ARMED SERVICES
                 UNITED STATES SENATE
                ON ACQUISITION REFORM




Report Number 98-093         DELIVERED: MARCH 18, 1998



             Office of the Inspector General
                 Department of Defense
Mr. Chairman and Members of the Subcommittee:

     I appreciate the opportunity to appear before you today
to discuss acquisition reform. At the outset, I want to
emphasize that the Office of the Inspector General (OIG) has
been a strong supporter of acquisition reform. We intend to
keep working diligently to help the Department and Congress
identify barriers to more efficient acquisition practices,
design new processes, and evaluate the impact of the changes
already in place.

INDICATIONS OF PROGRESS

     Considerable progress has been made in streamlining DoD
acquisition processes and there are numerous good news
stories. For example, we recently reported that program
managers for the Landing Transport Dock 17 Ship Class, the
Joint Standoff Weapon System, the Air-to-Air Intercept
Missile 9X, and an Air Force special access system had
successfully implemented various acquisition reform
principles such as compressing development schedules,
reducing acquisition costs, and making prudent tradeoffs
between performance, schedule, and cost. We found many
"best practices" in use by program managers who were
incorporating nondevelopmental items into their systems.
The use of purchase cards to buy goods under the $2,500
micropurchase threshold has grown dramatically and in
FY 1997 accounted for 71 percent of all purchases under the
threshold. The expanded use of the card has reduced much of
the paperwork and costs from using purchase orders and
contracts for the small dollar value acquisitions that make
up 91 percent of the 7.9 million DoD procurement
transactions in FY 1997. We have also noted the excellent
leadership provided by the Defense Logistics Agency (DLA) in
the Single Process Initiative, an effort to work with
industry to adopt commercially-used, contractor facility-
wide processes instead of the more costly contract-unique
requirements of the past. I am sure that the second panel
can cite many more examples.

     While all of this is "good news" for DoD, there is
still much work to be done in the area of acquisition
reform. As a result, much of our effort at the OIG
continues to focus on acquisition reform on a variety of
fronts.

PARTICIPATION IN ACQUISITION REFORM

     Over the last 5 years, we have participated on over 100
management process action teams, integrated process teams,
and working groups that have been the Department’s principal
means of generating new ideas for reforms and process
improvements across the spectrum of DoD business activities,
                                                             2


especially acquisition and logistics. We are very
supportive of this approach, which is being applied to a
wide range of issues such as contract administration,
acquisition benchmarking, pilot programs, Government-
property in the hands of contractors, and reducing life
cycle costs. At present, we are involved in 57 such groups.
The growing level of auditor participation on those teams
illustrates the good professional working relationship
between the acquisition and audit communities, as well as
general acceptance of the need for our advice to be
considered during the reengineering of DoD processes, not
just after new processes are already put into place.

LESSONS LEARNED FROM OVERSIGHT

     Despite budget reductions, the DoD acquisition program
continues to be far larger than any other capital investment
program in the world. At the end of FY 1997, DoD had 85
major Defense acquisition programs valued at over $725
billion of which over half had yet to be appropriated. In
addition, there are many hundred small programs. Likewise,
the DoD has the largest information technology budget in the
Government and spends more than $9 billion a year acquiring
information technology resources. The complexity and scope
of these efforts, the potentially catastrophic consequences
of any failure to provide reliable and technologically
superior weapon systems and information tools to our war
fighters, and the poor track record in terms of excessively
long lead times, insufficient attention to life cycle cost,
schedule slippage, cost growth, and high unit costs combine
to make both weapon system acquisition and information
technology investment high risk areas.

     Because of those risks, the Office of Inspector General
has historically given high priority to prudent audit
coverage of acquisition programs and functions. Despite
downsizing, we issued about 90 audit reports over the past
two and a half years that address acquisition of weapons,
other materiel and automated information systems. Likewise,
procurement fraud remains the principal workload of the
Defense Criminal Investigative Service, the criminal
investigative arm of this office, which has had between
1,600 and 1,800 open fraud cases throughout that period.
Today, let me share with you some of the results of our work
that bear on acquisition reform.

SPARE PARTS PRICING

     Mr. Chairman, your invitation letter requested that I
specifically address the continuing work by my office
reviewing commercial spare parts pricing issues, and any
agency actions taken to correct deficiencies found during
those reviews.
                                                              3


     Using commercially available, instead of militarily
unique, materiel wherever reasonably possible makes eminent
sense. The acquisition reform thrust toward expanding DoD
use of private sector business practices such as prime
vendor instead of maintaining huge DoD wholesale supply
inventories is also wise. During the past few years, the
DoD has been transitioning into different business
relationships with spare parts vendors and manufacturers.
We have issued several reports that address various facets
of this transition.

     In March 1994, we reported that the Service inventory
control points often were not transferring essential
logistics management data to the DLA or, conversely, the
receiving inventory control points were not always using the
data. In retrospect, these indicators were a harbinger of
the DLA failure to reimplement an Air Force program to break
out certain aircraft spares for procurement, which led to
the unnecessary sole-source procurements discussed further
on in this statement.

     In March 1996, we reported that DoD needed to address a
variety of issues to successfully implement its initiatives
to increase the use of local purchase authority and focus
the role of the central supply system on managing items
where value is added. The audit was unable to determine the
overall extent of local procurement of centrally managed
items. However, procurement data provided by 13
organizations visited during the audit showed that only
$7.2 million of $744 million (less than 1 percent) of the
local procurements were for centrally managed items.

     The report recommended that the Deputy Under Secretary
of Defense (Logistics) develop procedures to have
requisitioning organizations make greater use of local
purchase authority for centrally managed items when local
procurement is in the best interests of the Government;
direct that requisitioning organizations develop procedures
to determine the total cost of a local procurement; develop
a detailed strategy to address the impact of the local
purchase initiatives on centralized material management; and
develop procedures addressing local procurement when
inventory control points have excess stocks, reporting and
recording of demand data for local procurements, and
feedback on the progress and economies of local purchase
initiatives. Management indicated that the audit results
were already being put to use, concurred with the intent of
all recommendations, and proposed alternate methods to
encourage greater use of local procurement authority instead
of requisitioning items from central inventory stock.
Changing the mindset of personnel in the field so that they
fully utilize their expanded authority and capability to
make their own buying decisions has proven to be an
evolutionary process, not an instant fix.
                                                            4



HOTLINE COMPLAINTS ON SPARE PARTS PRICING

     In mid-1996, we received a complaint that the DLA was
paying a major aerospace contractor’s catalog prices, which
were far higher than prices paid by the DoD for the same
aircraft spare parts before DLA began procuring the parts in
a commercial pricing environment. Shortly thereafter, the
Hotline also received similar allegations concerning DLA
procurements from a second contractor’s parts catalog. We
initiated audits to determine the validity of the
allegations. I emphasize that, having been closely involved
in DoD acquisition reform and infrastructure streamlining
efforts, we went into both audits with the full realization
that some price increases were to be expected in cases where
the DoD was shifting certain costs to the contractors in
order to obtain such benefits as direct vendor delivery and
reduced Government inventory management burdens.

     We issued two final audit reports, both currently
releasable only inside the Government because they contain
contractor confidential or proprietary data, on February 6
and March 11, 1998. In brief, both audits substantiated the
Hotline allegations. We found a range of weaknesses in the
DoD approach to purchasing both commercial and non-
commercial spare parts, although the specific problems were
somewhat different in the two cases. It is especially
important to emphasize that all of the audited transactions
involved were sole-source procurements.

     Specifically, we audited the following:

          •   278 of 300 delivery orders over $25,000 from
              three DLA centers on one contract during
              calendar years 1994 through 1996.
              Documentation on the remaining 22 orders could
              not be found for various reasons. The orders
              reviewed constituted $22.7 million of the $24.4
              million in orders placed with that contractor
              for aircraft spares like pistons, gearshifts,
              gears, bearings, bolts, and springs. About
              $6.1 million was for commercial catalog items
              and the balance for non-commercial items.

          •   179 delivery orders totaling $12 million from
              DLA to another contractor on three contracts
              during the same period. Of the 179 orders
              reviewed, 124 orders were purchased from the
              contractor’s commercial catalog, and 86 orders
              were for items with previous DoD competitive
              price history. The purchased items included
              structural panels, fittings, supports, washers,
              bolts, and nuts for a wide variety of aircraft.
                                                              5



AUDIT RESULTS

     The audits indicated that the contractors involved were
not violating any laws or regulations. However, the DoD
procurement approaches were poorly conceived, badly
coordinated and did not result in the Government getting
good value for the prices paid for both commercial and non-
commercial items. Based on our analysis of previous DoD
purchases of the same aircraft spares, DLA paid prices that
were considerably higher than a prudent buyer would consider
fair and reasonable. Specifically:

          •   On one contract, DLA paid modestly discounted
              catalog prices that were $4.5 million, an
              average of 280 percent per item, more than fair
              and reasonable prices for $6.1 million of
              commercial items.

          •   On the same contract, DLA paid $1 million
              (FY 1997 dollars), an average of 30 percent,
              more than fair and reasonable prices for
              non-commercial items.

          •   On three contracts with another supplier, DLA
              paid $3.2 million, an average of 171 percent,
              more than fair and reasonable prices for
              $5.0 million (FY 1997 dollars) of mixed
              commercial and non-commercial parts with
              previous DoD price history.

Examples of particularly high price increases include the
following:

          •   DLA paid $714.00 each for 108 electrical bells,
              a 1,430 percent increase over the previous
              price of $46.68.
          •   DLA paid $1.24 each for 31,108 springs, a 2,380
              percent increase over the previous price of
              $.05.
          •   DLA paid $403.49 each for 246 actuator sleeves,
              a 1,532 percent increase over the previous
              price of $24.72.

          •   DLA paid $75.60 each for 187 setscrews, a
              13,163 percent increase over the previous price
              of $.57.
                                                              6


FLAWS IN DoD PROCUREMENT APPROACH

     We found considerable evidence that the DoD had not yet
learned how to be an astute buyer in the commercial market
place. Probably the most fundamental problem, however, was
that the Government should not have been procuring many of
these parts on a sole-source basis in the first place,
whether they were commercial or non-commercial items. In
the case of the one contractor, a Military Department had
negotiated an agreement over 20 years ago that allowed DoD
access to the contractor’s technical data for the
competitive procurement of replenishment spare parts. When
management of those parts was transferred to DLA as part of
the mass transfer of consumable items over the past few
years, DLA failed to continue the breakout program. All 179
of the orders that we reviewed for one contractor were
either covered by a previous access to technical data
agreement (159 items) or eligible for competitive
procurements because the Government owned the technical data
(20 items). Similarly, there was little effort until our
audit to screen the items being bought sole-source from the
other contractor to determine whether alternatives like
reverse engineering would be cost-effective to enable
competitive buys.

     Even in a sole-source situation, it is accepted
commercial practice for major customers to seek, and often
obtain, significant discounts off suppliers’ catalog prices.
The DLA failed to maximize its negotiating leverage in any
meaningful fashion and therefore received only modest
discounts from one contractor and none from the other. Both
of our reports contain data illustrating that the DoD was by
far the largest customer for most of the parts in question.
In some cases, DoD was the only purchaser of the part even
if it was a commercial item. (Under FAR 2.101, any item
"offered for sale, lease or license to the general public"
is termed a commercial item.) The potential DoD influence
as a major customer was diminished, however, by a
combination of an extremely disjointed procurement approach
and a widespread misimpression that aggressively pursuing
discounts was either unnecessary or not in consonance with
commercial practices.

     It is telling, we believe, that DLA used at least 75
different contracting officers to negotiate and award about
1,800 individual orders with one of these contractors.

     These contracting officers operated in isolation, as
reflected in their completely different perceptions of the
reasonableness of the contractor’s prices. While some
accepted any "commercial price" as a good price, others
unsuccessfully sought uncertified cost or pricing data.

     Another problem involved the misperception that DoD was
                                                              7


somehow getting good value despite the drastic per unit
price markup. For example, buying from a commercial parts
catalog generally enables the buyer to eliminate in-house
inventory storage and distribution operations. The
commercial supplier offers timely direct vendor delivery and
the commercial price structure reflects that the supplier is
carrying that burden.

     In the case of the orders that we audited, DLA was
generally buying for inventory and therefore the "direct
delivery" was to a Government warehouse, not a user of the
parts. Therefore, there was no apparent discomfort with the
fact that neither contractor’s delivery response time was
particularly good.

     Other problems included using a basic ordering
agreement instead of a better contract vehicle, not grouping
purchases for inventory into economic order quantities,
negotiating prices based on small quantity purchases despite
the fact that overall requirements were rather large and
inadequate requirements forecasting. We also found little
justification for having DLA be the purchasing agent for
many of the small orders, which resulted in DoD customers
having to pay a large DLA surcharge with minimal value
added. Local procurement is a viable option when buying
small quantities for immediate use, since commercial parts
catalogs are readily accessible through electronic media.

     A final problem, which surfaced in the management
comments on the draft version of our February 1998 report,
is the lack of good management information on the overall
experience to date in buying commercial items. DLA
estimated that prices for commercial items, on contracts
over $25,000 awarded under FAR Part 12, had modestly
decreased. Unfortunately, their study was completely
unsupportable. The DLA and we agree that the database used
for the study is badly flawed with numerous coding errors.
Moreover, we found major problems with the methodology.
Although we share the frustration caused by not having the
full picture on the impact of buying commercial items, so
far we have not been shown or found data from which overall
conclusions can be reliably developed.

DoD CORRECTIVE ACTIONS

     I am pleased to be able to report to you that DoD
senior managers in both DLA and the Office of the Under
Secretary of Defense for Acquisition and Technology
recognized the importance of our findings right away and
took appropriate actions. There had been some disagreement
with our position that contracting officers should be aware
of and empowered to obtain uncertified cost or pricing data,
if in their best judgment, it is necessary to understand the
basis of a commercial price. We remain convinced that
                                                              8


access to such data often is particularly important in
determining price reasonableness of sole-source items where,
as in this case, there is no competitive commercial market
to ensure the integrity of prices. We have not yet received
final comments on our February 6 and March 11 reports, so I
do not know if this or any other substantive issues remain
unresolved at this point.

     In December 1997, a new indefinite-delivery corporate
contract was awarded to one contractor for 216 sole-source
commercial items which will save, according to DLA, about
$83.8 million over a 6-year period. The negotiations which
began in October 1997, were difficult and were conducted in
an environment where obtaining even uncertified cost or
pricing data is strongly discouraged.

     On November 5, 1997, we sent a memorandum to DLA
expressing concern that the negotiating team had not
requested uncertified cost or pricing data from the
contractor. On November 7, 1997, the contracting officer
wrote the contractor requesting uncertified cost or pricing
data for 73 items where the negotiating team had been unable
to support the prices as fair and reasonable.

     Only three days later the contractor accepted the
Government's last (and fourth) offer instead of providing
the cost data. Prior to the request for cost data, the
contractor's last offer was still 21.4% higher than the
final Government offer. While the final negotiated price
was clearly more reasonable than the last contractor offer,
it is still higher than the Government's prenegotiation
maximum position. We can only speculate as to the impact,
if any, of the request for cost data on the contractor's
decision to accept a price that had clearly been
unacceptable up to that point. In any event, DoD
understanding of the basis for the contractor's pricing
remains incomplete and any analysis of the reasonableness of
the agreement must necessarily be somewhat subjective.

     Generally, however, we agree with the Department’s
overall approach of using the lessons learned from our work
and possibly other sources to develop more effective
training for DoD personnel on being smart buyers in the new
acquisition environment. We also welcome the offer by
industry associations to help arrange more dialogue between
Government and industry procurement experts to help
facilitate new business relationships in which both sides’
interests are protected. This cooperation will be helpful
to DoD in terms of both training and policy initiatives.
                                                           9


The agreed-upon DoD actions also include:

     •   Negotiating and awarding a new indefinite-
         delivery contract with one contractor that
         provides more substantial discounts off catalog
         prices;

     •   Seeking a similar up-front pricing arrangement
         for non-commercial items;

     •   Requesting voluntary refunds where appropriate;

     •   Rectifying the problems found with sole-source
         procurements in the situation where drawings
         were available, but not being used to solicit
         items competitively;

     •   Considering alternatives to the other
         sole-source situations addressed by the
         auditors;

     •   Reviewing whether the audited corporate
         contract is now being used properly;

     •   Using the DLA Method of Support Model or other
         business case analysis model suitable for
         planning major changes from stock management,
         before shifting to commercial business
         practices, such as a corporate contract;

     •   Training DLA managers and operations personnel
         in the proper use of corporate contracts, items
         and requirements that should be excluded, data
         requests and evaluations of prices. DLA issued
         specific guidance in a policy letter,
         "Determinations of Commerciality and Price
         Reasonableness," dated June 10, 1997;

     •   Developing automated system changes to preclude
         automatic order placement for:

           (a)   first time buys, to assure items are
                 procured competitively; (This will
                 establish a substantiated cost baseline
                 for subsequent comparisons, e.g.,
                 comparing competitive prices to
                 corporate contract price lists.)

           (b)   subsequent requisitions for stock-
                 numbered items for which the buy history
                 indicates continued use of a corporate
                 contract would likely result in a
                                                           10


                      substantially higher material cost
                      and/or an unacceptable delivery
                      timeframe;

          •   Continuing to make a concerted effort to
              develop long-term stable partnerships with
              competitive, as well as sole-source suppliers
              available on DLA’s electronic shipping mall to
              enable their customers to select the most
              advantageous source to meet their needs.

     While we consider DoD actions to be responsive to the
concerns raised in our report, additional measures may be
needed as more is learned about both pitfalls and best
practices related to buying commercial products. We are
currently auditing a third DLA corporate contract
arrangement and the General Accounting Office has been
conducting reviews that will provide more data. Finally,
while we hope our audit work will continue to be helpful in
this area, we encourage more self-evaluation by the DoD
acquisition community.

FUNDING INSTABILITY

     Despite the important issues at hand regarding DoD
buying practices for supplies and spare parts, a strong case
can be made that pervasive funding instability is the
Department’s single most challenging acquisition reform
issue. Instability in the execution of acquisition programs
is the leading cause of cost growth and schedule slips in
major weapon systems. In order not to degrade readiness,
the DoD has often used weapon system acquisition programs as
bill payers for unbudgeted operational and contingency
costs. Moreover, neither acquisition planning nor support
program budgets always conform to fiscal reality. The
impression of too many programs chasing too few dollars has
been a DoD acquisition issue for many years, and it is
difficult to make a convincing case that the tendency to
over-program has been overcome. Affordability-induced
program changes and production rate cut backs in mid-stream
result in a vicious cycle of increased costs that can cause
further reductions in quantities, additional stretch-outs,
and even greater per unit costs. The DoD estimates that
every dollar removed from a program in the near years
requires three dollars in later years to make up the
reduction.

     This is definitely an area where dialogue and
partnership between the DoD and Congress are needed. There
can never be enough emphasis on improving weapon system
acquisition and life cycle cost estimating, as well as on
realistic programming and budgeting in all DoD accounts. We
also need to respond more effectively to program managers’
                                                             11


assertions (as expressed in numerous process action teams
and other forums) that funds are constantly siphoned off
even during budget execution. We recently initiated an
audit to shed more light on to what extent this is occurring
and why.

     Program management flexibility is also severely
constrained by the way in which funds are appropriated and
allocated in a myriad of separate accounts. The DoD
accounting systems were designed to meet the need to
maintain the integrity of each of the tens of thousands of
accounts maintained by the DoD in what is undoubtedly the
most complicated chart of accounts in the world. This
multiplicity of "colors of money" is a root cause of the
formidable DoD problems with the accuracy of accounting
data, the complexity of our contracts, the difficulty of
properly managing disbursements and progress payments, the
high overhead costs of DoD budget and accounting operations,
and the considerable restrictions on the flexibility of
managers to shift funds quickly to meet contingencies. Each
contractor voucher must contain at least one, and in some
cases, many accounting classification codes that typically
have from 46 to 55 characters a piece. This is in contrast,
of course, to the 16 characters used for a commercial credit
card account.

     We believe that the DoD and Congress ought to
reconsider the need for so many discrete appropriations and
subaccounts, as well as the adequacy of the currently
authorized periods of obligational availability of
appropriations. These kinds of issues are seldom considered
in the context of acquisition reform, but we believe that
any streamlining of DoD financial management requirements
would considerably assist acquisition managers.

JOINT CONTRACTING FOR DEPOT MAINTENANCE OF SECONDARY ITEMS

     Based on audits conducted recently, we are confident
that there are numerous additional opportunities for
acquisition reform.

     For example, we recently reported that the Military
Departments are not identifying opportunities and initiating
actions for joint contracts for repair of secondary items.
Taking a snapshot at a point in time in FY 1997, we
identified over 3,000 open contracts, valued at over $1
billion, that involved multiple inventory control points of
the Military Departments using the same repair facility or
supplier, which were candidates for joint contracting. We
noted that individual contractor repair facilities had 10,
50, or even as many as 110 different open repair contracts
from the various DoD inventory control points.

     There are significant opportunities for administrative
                                                          12


efficiencies and economies-of-scale cost savings from joint
contracting. At a facility with multiple open contracts,
the contractor and DoD would both benefit from having one
omnibus type of contract covering all REPAIR actions for a
given period of time. The inventory control points of each
of the Military Departments are focusing on their own
requirements, but do not have the criteria or processes in
place for combining DoD-wide requirements on a single
contract for depot maintenance of repairable items. Because
this issue cuts across the logistics and acquisition
bureaucracies of the Military Departments, there may be
institutional resistance. However, this is another instance
where we think the DoD must reorganize its acquisition
approach, simply to be a smarter buyer of services.

DUAL MANAGEMENT OF COMMERCIALLY-AVAILABLE COMMODITIES

     We are reviewing the issue of dual management of
commercially available commodities. The General Services
Administration (GSA) has expanded the range of commercial
products available through its Federal Supply Schedule.
With the expansion of GSA products that were offered to
Government organizations, there is justifiable concern that
DoD is operating central procurement programs for the same
products as GSA, tying up scarce DoD acquisition workforce
resources that are needed elsewhere.

     We are now performing an audit addressing the DLA
initiatives to procure commercial brand name items and the
DLA management of selected commodities. Our work to date
suggests that the DLA has duplicated and competed with
procurement and supply programs of other Government
organizations in procuring commercial brand name items. It
is our belief that, in this era of dwindling DoD resources,
the DLA should concentrate on its role as a combat support
agency and direct its efforts toward procuring replenishment
parts for essential weapon systems, or personnel items that
are in support of military operations. By competing with
other Government organizations for commercial products, the
DLA and its DoD customers are missing opportunities to
consolidate purchases under a single source of supply. In
consolidating purchases, DoD increases its potential for
significant savings due to volume buying discounts while
cutting administrative costs.

     In a report on the DLA Electronic Catalog Pilot
Program, we commended DLA for starting an electronic catalog
to reduce reliance on DoD inventories. However, we noted
that many products in the catalog duplicated products
offered by GSA programs, particularly the GSA Advantage
system. The Advantage system is a shopping service on the
Internet that gives customers access to approximately
310,000 items, and when it is completed in July 1998, the
Advantage system is expected to contain approximately
                                                          13


4 million items. Of the seven vendors in the DLA pilot
program, five vendors, or companies supplying items to the
vendors, had contracts with the GSA for the same or similar
items. The types of items that the vendors supplied
included cleaning supplies, office equipment and supplies,
packaging materiel, and storage cabinets. We also found
that the DLA electronic catalog prices were higher than GSA
prices. The higher prices were partly caused by the
difference in the cost recovery factors used by both
organizations to recoup costs for administering their
programs. The DLA cost recovery factor was 7.6 percent of
the cost of the products while the GSA factor for Federal
Supply Schedule contracts was 1 percent. We are working
with DLA to resolve our concerns over the duplication in
commercial products offered by DLA and GSA in the electronic
catalog by surveying the preferences of the potential DoD
customers, principally in the Military Departments.

     We also recently reported that the DLA managed battery,
food service, and photographic national stock numbered items
in 17 Federal supply classes that were centrally procured by
the GSA. The items included commercial products such as a
deep fat fryer, dishwasher, film, and an ice cream cabinet.
Our random statistical sample indicated that 27,958
(61 percent) of 45,936 national stock numbered items were
either procured by the GSA, or the DLA and the GSA
contracted with the same vendors. Additionally, our
analysis of the 17 Federal supply classes showed that
approximately 92 percent of the items managed in these
classes were classified as nonessential to the operations of
military weapon systems.

     We also found that in some instances DLA customers paid
higher prices than if the same item were procured through
the GSA. For example, The Defense Supply Center Richmond,
Virginia, using a GSA Federal Supply Schedule, placed a
delivery order with a vendor for color print film. The
vendor shipped the film directly to the DoD customer and the
supply center was billed $34,842 for the film. The Supply
Center added a 45-percent cost recovery factor to the Supply
Schedule contract price and billed the customer $50,572,
which was $15,730 more than the GSA price. While attempting
to resolve this issue with DLA, we learned that the DLA was
planning to expand its procurement of commercial items by
establishing a prime vendor program for food service
equipment which will further duplicate items GSA sells.

     We are also auditing apparent DLA duplication with the
Department of Veterans Affairs in the purchase of
commercially available medical items for medical treatment
facilities. DLA spent about $46 million during FY 1997 to
establish prices and engage medical contractors primarily to
fill customer orders, valued at about $1 billion, from DoD
medical treatment facilities. Likewise, we are auditing a
                                                          14


similar situation involving DLA, GSA, and the National
Industries of the Blind regarding office supplies.

     In general, we believe that the DoD should stop
competing with other Government Agencies that have the
mission to buy and supply commercial items, both to conserve
DoD acquisition resources and to avoid reducing overall
Government negotiating leverage with suppliers. We have
brought our audit results in this area to the attention of
senior managers and are continuing to work this issue within
the Department.

ADVANCED CONCEPT TECHNOLOGY DEMONSTRATION PROGRAM

     The Advanced Concept Technology Demonstration (ACTD)
Program is an important acquisition reform initiative to get
emerging new technologies to meet critical military needs to
the war fighters in a much shorter time than the "normal"
acquisition development cycle. The Department used 10
selection criteria established in November 1995 to choose
programs for inclusion in the ACTD initiative. Those
criteria included requirements that the technology should be
sufficiently mature and the proposed program should provide
significantly increased military capability. DoD
acquisition regulations also stated that ACTD projects
should meet urgent military needs. When we reviewed the
program, the DoD had approved 22 projects, valued at
$4 billion, in FYs 1995 and 1996. We found that support for
the program was hampered because there was no clear
understanding among the technologists and the war fighters
of what is a critical military need and what is a mature
technology. We reported that, based on the then current
selection criteria, five projects, valued at $2.3 billion,
appeared to be questionable selections for this program. As
a result, the Joint Staff and the Office of the Under
Secretary of Defense for Acquisition and Technology agreed
to clarify the criteria used to select projects for this
program. Draft revised criteria now have been circulated
within the Department for comment. When they are finalized,
those criteria will be included in the Acquisition Deskbook.

OTHER TRANSACTIONS

     The use of "other transactions" is authorized under
10 U.S.C. 2371 as a way to encourage commercial firms to
join with the Department in the advancement of dual-use
technology, contribute to a broadening of the technology and
industrial base available to the Department, and foster
within the technology and industrial base new relations and
practices that support national security. An "other
transaction" is not a contract, grant or cooperative
agreement. "Other transactions" are considered exempt from
the Competition in Contracting Act, Truth-in-Negotiations
Act, Contract Disputes Act, Antikickback Act of 1986,
                                                            15


Procurement Integrity Act, Service Contract Act, Buy
American Act, the intellectual property clauses of the Bayh-
Dole Act, the Title 10 sections relating to procurement
contracts and the Federal Acquisition Regulation. "Other
transactions" are also exempt from audit access for
examination of contractor records by the General Accounting
Office and Defense Contract Audit Agency.

     There are two types of "other transactions" authorized
by law. The first type of "other transaction" was
authorized in 1989 to enable the Defense Advanced Research
Projects Agency, and the rest of DoD in 1991, to access
commercial technology for research and development purposes.
I will refer to these as research "other transactions."
Research "other transactions" usually consist of a
consortium of companies and requires the companies to
contribute at least 50 percent of the costs, to the extent
practicable. The Department can waive the 50 percent cost
share. There is also a requirement that there be a
determination that a contract, grant or cooperative
agreement would not be feasible or appropriate. The second
type of "other transaction" was authorized in Section 845 of
Public Law 103-160 and authorized the Defense Advance
Research Projects Agency in 1994, and the rest of the
Department in 1996, to enter into "other transactions" for
prototype projects related to weapons or weapon systems. I
will refer to these as prototype "other transactions."
Prototype "other transactions" do not require cost sharing
or the determination that a contract, grant or cooperative
agreement would not be feasible or appropriate.

     The basic authority for "other transactions in
10 U.S.C. 2371 requires the Secretary of Defense to issue
regulations but none have been published. Although there
have been reviews by the Department and the American Bar
Association on what statutes are not applicable to "other
transactions," there is no definitive list published.

     For FY 1990 through FY 1997, we believe the Department
issued 171 research "other transactions," valued at
$3 billion, and 59 prototypes "other transactions", valued
at $837 million. We have had continuing concerns about a
lack of controls over the "other transactions" process since
none of the normal rules and procedures apparently apply.
In our 1997 report on 28 "other transactions" awarded by the
Defense Advanced Research Projects Agency, we outlined the
need to put funds advanced to consortiums into an interest
bearing account until used; to monitor the actual cost of
the work against the funds paid; to ensure that cost sharing
arrangements were honored; and to standardize the audit
clause.

     We are currently looking at how 78 "other transactions"
are being managed by the Army Communications and Electronics
                                                          16


Command, Air Force Wright Laboratory, Defense Advanced
Research Project Agency, and Defense Contract Management
Command. The current review found problems similar to those
in our 1997 report about the Defense Advanced Research
Projects Agency. We have been cooperatively working with
the Department to make improvements in issuing and
administering the "other transactions" and correcting
problems identified. It is still too early to report on the
results from our other major initiative in this area, a
joint review with the Defense Contract Audit Agency on how
the contractors are charging costs to "other transactions."

     The Department is operating and expanding this
$3.8 billion program based on interim guidance memorandums
issued in 1994 by the Director, Defense Research and
Engineering and 1996 by the Under Secretary of Defense for
Acquisition and Technology. The Department needs to issue
long overdue official guidance on both the research and
prototype "other transactions." In the early 1990s, the use
of "other transactions" was restricted to the Defense
Advanced Research Projects Agency and the lack of guidance
was not a critical problem since only eight contracting
officers at the Agency were involved. The small scope of
the program permitted easy sharing of knowledge and lessons
learned. Since expansion of the use of the "other
transactions," we now have many personnel at multiple
locations trying to award and manage "other transactions."
The lack of good guidance causes repetitive relearning of
problems and solutions for managing "other transactions."
The Director, Defense Procurement, recently promised to
issue guidance and lessons learned within 120 days on use of
prototype "other transactions." The Director of Defense
Research and Engineering has had draft guidance in process
on research "other transactions" since 1994, but expects to
issue it shortly.

     The incentive for "other transactions" was to attract
new companies into doing research and development for the
Department, yet the DoD collected no data on the program's
success or lack of it in that area. We collected data for
the period 1990 through 1997 showing that 85 percent of the
funds for "other transactions" go to traditional DoD
contractors (81 percent) and nonprofit institutions like
universities, States and Federally Funded Research and
Development Centers (4 percent).

     We noted that from FY 1990 through FY 1997, 170 new
contractors did business with DoD and this was only
20 percent of the participants in consortiums working on
"other transactions." The traditional DoD contractors and
nonprofit institutions accounted for 669 of the participants
or 80 percent of the total. Some of the traditional DoD
contractors participated in as many as 20 "other
transactions."
                                                          17



     Program advocates may propose expansion of the "other
transactions" authority into production. We have expressed
concerns within the Department that, without performance
metrics on "other transactions," DoD and Congress cannot
determine the benefits now and in the future of "other
transactions."

     We are also concerned that if "other transactions"
authority is extended to production runs of equipment, there
will be a need for additional scrutiny of pricing for sole-
source items. In these cases, the Department will require
access to cost or pricing data, plus audit access for DCAA,
in order to ensure fair prices. The Cost Accounting
Standards should also apply, except perhaps in cases with a
new commercial contractor that has no DoD contracts. For
new contractors, the Department should have the authority to
waive the Standards.

TESTING AND RISK MANAGEMENT

     Adequate testing before buying or installing new
systems and adequate risk management have been basic tenets
of the DoD acquisition process for many years. We continue
to believe that congressional insistence on independent test
and evaluation was very prudent.

     We recently reported that the Air Force planned to
install Precision Landing System Receivers in 120 C-17
aircraft with an estimated cost of up to $105 million.
However, the Air Force was going to do so without sufficient
testing to determine if the system would work. Having seen
the inability to operationally deploy the existing Mobile
Microwave Landing System on C-130 aircraft for the last
decade, after spending $98 million, we had grave concerns
about the viability of this "streamlining" action. The Air
Force also had not complied with several critical
acquisition management requirements, specifically,
developing life-cycle cost estimates and assessing potential
alternatives to meet the requirement. In addition, the Air
Force system was a command unique, service unique system
even though the DoD objective is to develop a joint
precision approach and landing system for all Services. In
the case of the C-17 Precision Landing System Receiver, we
questioned the risk assessment done by the Air Force. The
Air Force is now doing additional testing on the landing
system before it installs the system on additional aircraft.

     In implementing acquisition reform initiatives, the
Department moves from a risk avoidance to a risk management
environment and the program managers are being asked to
accept bigger risks. However, in order to function in this
environment, the program managers and other acquisition
managers must make reasonable assessments of what the risk
                                                          18


is and what actions can be taken to manage and mitigate the
risk. We reported that risk management plans for the Combat
Service Support Control System, Minuteman III Guidance
Replacement Program, Fixed Distributed System, Single
Channel Anti-Jam Man-Portable Terminal, and the Hunter
Unmanned Aerial Vehicle were not adequate to identify,
manage and reduce program cost, schedule, and performance
risks. A working group subsequently developed much improved
guidance on risk management. However, the Department needs
to continuously assess and improve its risk identification
and management methodologies, techniques, and tools.

FOREIGN COMPARATIVE TESTING PROGRAM

     We strongly support the expanded emphasis on using off
the shelf, nondevelopmental items. Similarly, cooperative
research and development with our allies often makes far
more sense than duplication, especially as many Defense
budgets shrink. We are issuing a series of audit reports on
the Foreign Comparative Testing Program, which provides for
testing foreign technologies and equipment that have the
potential to satisfy U.S. military requirements.

     In one report, we recommended resubmission and
reconsideration of testing the foreign-made nickel cadmium
battery as a substitute for a silver zinc battery in the
Navy SEAL Delivery System. By using the nickel cadmium
battery for training and low-power mission requirements, the
Navy can avoid costs of over $7 million annually and reduce
the 30-year life cycle cost of the system by $166 million.
The Navy agreed in principle and we are working with them to
resolve details. In another report, we recommended stopping
funding for an expendable countermeasures dispenser for the
F-15, until the program manager could provide an executable
plan to procure the dispenser if testing was successful.
The testing of the dispenser was 20 percent of the $7.4
million available for funding the testing program in FY
1998. We are working with the program manager of the
Foreign Comparative Testing Program to further improve the
processes used for planning and selecting projects for
testing. With improvements in the processes, the Department
can reap additional benefits from this program.

INTERNATIONAL COOPERATIVE RESEARCH AND DEVELOPMENT PROGRAMS

     The Department has taken actions to improve the use of
International Cooperative Research and Development Programs
since our 1992 report pointed out numerous weaknesses in
that effort, but a recent review showed that additional
actions were needed. The International Cooperative Research
and Development Programs are a family of programs in which
DoD and a foreign ally share in the cost and technology
advances of research and development efforts. However,
acquisition program managers are still not adequately
                                                          19


considering international cooperative opportunities early in
the acquisition cycle. Out of 37 responses to a
questionnaire to 86 Acquisition Category I programs, over
70 percent indicated little consideration given to
cooperative opportunities. We will work with the Department
on revising training and guidance to improve the use of
international cooperative research and development.

REQUIREMENTS DETERMINATION

     While acquisition reform tends to focus on the
mechanics of development and procurement, significant
savings in those areas could be wasted if requirements are
overstated or misstated. In our audits, we have questioned
the reasonableness of the numbers of some weapon systems to
be procured and how the Military Departments determine those
numbers. In many instances, the requirements estimating
process was little more than a multiplier of the number of
platforms that can conceivably carry a particular system.

     In a series of recently completed and on-going audits,
we are assessing DoD theater models used in generating
quantitative requirements. Improvements have been made as a
result of the Capabilities-Based Munitions Requirements
process, which is intended to ensure that military planners
base munitions requirements on the estimated number of
munitions needed to defeat specified threats within a given
force structure. The DoD has made considerable progress in
getting the Joint Staff and the Combatant Commands more
involved in these kinds of calculations. However, we are
identifying problems with the models used in the process.
We are working with the multiple organizations responsible
for the models to correct the problems. The Department must
make hard assessments of what is really needed in light of
constrained funding. Without a rigorous and realistic
requirements determination process, which recognizes that
each Military Department or each platform does not have to
"kill" all the threats, the DoD will not be able to
effectively integrate the requirements estimating process
with the acquisition programs and budget.

ACQUIRING AUTOMATED INFORMATION SYSTEMS

     The rapid advance of information technologies underlies
the ongoing revolution in both military arts and modern
business practices. For example, the use of modeling and
simulation is growing and will be used more and more in
areas like training, testing and acquisition management.

     The Congress addressed the compelling need to improve
the Government’s performance in managing information
technology programs by enacting the Clinger/Cohen Act. We
are attempting to provide thorough audit coverage of the key
issues confronting information systems acquisition managers.
                                                          20


Those include: addressing the serious challenges posed by
the Year 2000 conversion program; improving the Department’s
perilous computer security posture; moving away from decades
of disjointed information systems management to fully
integrated systems; and effectively implementing the
disciplined investment decision making processes mandated by
the Clinger/Cohen Act. We have issued 43 reports on these
matters over the past 2 years.

     We have found that, for major automated information
systems, the DoD has not fully implemented the management
structure and reform concepts envisioned by the DoD
acquisition reform initiatives. In March 1996, DoD reissued
its "5000 series" of documents that address defense
acquisition policies and procedures. As part of the
acquisition reform efforts, DoD integrated, for the first
time, the acquisition policies and procedures for weapon
systems and information systems. However, we continue to
have concerns about the management controls for information
systems. Recent audits have identified instances where the
management controls for vital system development projects
did not ensure adequate program definition, structure,
design, contracting, assessment, decision reviews, and
periodic reporting. For example, we found that the
acquisition of the Defense Civilian Personnel Data System
needed stronger acquisition management controls to include
clearly defined lines of responsibility, authority, and
accountability for the acquisition of the system; assignment
of a program manager with the requisite acquisition
training; and a comprehensive in-process review of the
system to include the program acquisition strategy,
acquisition program baseline, test and evaluation master
plan, life-cycle cost estimates, and information assurance
plan. The multi-component Defense Civilian Personnel Data
System program life-cycle cost is about $10 billion, which
includes $795 million for the regionalization/modernization
investment portion.

     The DoD acquisition cost of automated training
simulator systems now exceeds $1.5 billion annually. We
performed an audit that indicated the Department was
developing and procuring large-scale (involving
interoperable simulators, war games, and live ranges)
information system training simulations without assigning a
single manager the responsibility and authority for
oversight and coordination for these large-scale training
simulations. The programs lacked the visibility and
acquisition oversight that are essential for investments of
this magnitude and importance. The Department agreed and
instituted corrective actions.

     In different reports, we have identified at least eight
information systems, estimated to cost $2.7 billion, which
should be subjected to Major Automated Information System
                                                          21


Review Council milestone reviews. Information systems that
cost more than $30 million per year or $120 million in total
development costs or $360 million in life-cycle costs are
subject to review and oversight by the Council. The
Military Departments and Defense agencies do not always
identify information systems as major and requiring
milestone reviews by the Council. The DoD relies heavily on
audits to identify issues like these; however, the decline
in audit resources and hence, audit coverage, raises serious
concerns regarding the adequacy of controls in this vital
area. We understand that the Department will soon merge the
Defense Acquisition Board and Major Automated Information
System Review Council processes. Because the Defense
Acquisition Board is generally considered a more rigorous
oversight mechanism, we hope that such a realignment will
move the Department closer to full implementation of the
Clinger/Cohen Act and increased emphasis on automated system
investments. Time will tell.

SERVICE CONTRACTS

     DoD service contracting is another high risk area for
waste and mismanagement. Service contracts is a growth area
in DoD, and may continue to grow because of the expanded
emphasis on outsourcing. About $93 billion was spent on
service contracts during FYs 1996 and 1997. The amounts for
service contracts annually exceed the amounts spent on
procurement contracts for weapon systems. For weapon system
contracts, the senior leadership in the Department provides
oversight through Selected Acquisition Reports, Defense
Acquisition Board reviews, and numerous briefings. There
are almost no oversight mechanisms and the Office of the
Secretary of Defense receives basically no information on
how the Department is doing in managing service contracts.
We see no comprehensive efforts by the Department to oversee
or manage the growth, costs, profits or fees for service
contracts.

     Since FY 1996, we have issued 44 reports covering
service contracts. The majority of these audits resulted
from Hotline allegations and congressional requests, rather
than DoD management requests. The following sections
highlight some of the service contract problems we found on
competition, task order contracting, intra- and inter-agency
procurements, and advisory and assistance services.

COMPETITION

     Competition has long been the cornerstone for effective
Government contracting. Competition has been an important
tool in ensuring fair prices and eliminating price scandals
caused by overpriced goods and services. Typically,
competition results in price reductions of 5 to 30 percent.
Competition works, but the process is dependent on the
                                                          22


diligence of program and contracting officials to develop
good acquisition planning, to publicize requirements, and to
select contractors who offer the best value and performance
to the Government. For service contracts in FYs 1996 and
1997, about 72 percent ($66 billion) were awarded
competitively and 28 percent ($26.4 billion) were awarded on
a sole-source basis. For the 23 different categories of
service contracts, the percent of competitive contracts
range from a high 92 percent for construction related
services ($12.1 billion) to only 48 percent for technical
services ($2.6 billion).

     I previously discussed specific problems with the two
sole-source contracts for spare parts. DoD organizations
also continue to miss opportunities to reap savings from
competition for services. Some contracting officers are
willing to accept faulty justifications for using other than
full and open competition and work statements that give the
incumbent contractor or a particular contractor a
competitive advantage, and ignore or circumvent thresholds
or procedural requirements. We continue to see instances
where contracting officers used incorrect justifications of
uniqueness or urgency when in fact, the real reasons were
inadequate planning or a desire by program offices to
continue work with the same contractor or subcontractor.
For example, in a recent audit of contract reconciliation
services performed by a major accounting firm, the
contractor was originally selected noncompetitively as a
subcontractor to a disadvantaged small business firm.
Subsequent awards were made to the accounting firm as a
prime contractor, first as a lone competitor, then using
sole-source justifications of uniqueness of service and
urgency. The award has stayed with the same contractor
since 1989, covering four time and materials contracts and
three contracting activities at a cost that has reached
almost $80 million. In another instance, the Defense Supply
Service-Washington planned to award a $45 million sole-
source business process reengineering contract because
program officials wanted to continue obtaining services from
the particular contractor.

     Contracting officers also avoided competition on
contracts set aside for small business by arbitrarily
keeping award amounts below thresholds at which competition
is required or using unrealistic minimum contract values to
determine whether threshold limitations were met. An audit
showed that Navy contracting officials inappropriately
awarded 6 small business contracts noncompetitively because
they used minimum contract values to avoid the thresholds
for competing the contracts. Competition would have saved
$45 million over 6 years on the contracts.
TASK ORDER CONTRACTING

     The Federal Acquisition Streamlining Act (FASA)
                                                          23


authorized the use of task order contracts where the
specific content of the work to be performed is determined
after the original contract is signed through individual
task or delivery orders for specific work to be performed.
For contracts for advisory and assistance services where the
contract period exceeds 3 years and the contract amount is
estimated to exceed $10 million, the Act requires, whenever
practical, the use of multiple award task order contracts to
allow quick, commercial-style competitions among the
awardees when specific requirements are needed. We have
identified use of large single-award omnibus contracts with
broad statements of work and no competition for individual
task orders. In these cases, the task order contracts were
awarded prior to FASA and work requirements have not been
recompeted. For example, one Defense agency allowed
customers to pick the desired contractor among the multiple
award contracts and direct work to that contractor without
competing the requirement. On another multiple award task
order contract, contracting officials competed the orders,
but manipulated evaluations to select the preferred source,
which was often the incumbent contractor on prior contracts
for similar work. The problems cited at the Defense agency
have been resolved. At the request of Senator Carl Levin,
we will be doing additional work this year on reviewing the
use of multiple award task order contracts.

INTRA-AGENCY AND INTER-AGENCY PROCUREMENTS

     We have issued seven audit reports that have
highlighted persistent problems with use of inter-agency and
intra-agency transactions. Although none of these reports
identify widespread abuse like that found in the early
1990’s involving Economy Act orders, the reports indicate
that some organizations continue either to use Economy Act
orders to direct work to preferred sources or to avoid
competition.

     One report discusses a Navy program office that wanted
to award a sole source $30 million small business contract
through the use of an intra-agency order. Another audit
indicated that the Defense Finance and Accounting Service
directed work to a preferred contractor by adding the
requirement to another Defense agency’s contract. In this
instance, other contracts were available that could have
saved money from competition and lower management fees, but
the Defense Finance and Accounting Service would not have
been able to ensure selection of the preferred source.
Another audit identified the misuse of Economy Act orders by
the DoD Electronic Commerce Office, which was at the time
part of the Office of the Under Secretary of Defense for
Acquisition and Technology. In that case, about $300,000
was placed on an order to another activity solely to prevent
it from expiring.
                                                             24


     This area is difficult to control because there is no
reporting system that provides visibility on which
activities are ordering and accepting work or the magnitude
of Economy Act orders.

CONTRACTS FOR ADVISORY AND ASSISTANCE SERVICES

     Contracts for advisory and assistance services, which
include most of the professional, administrative, and
management support services contracts and contracts for
special studies and analyses, are an area where we continue
to find problems. During fiscal years 1996 and 1997, there
were $18 billion of these contracts. Contracting officers
are responsible for ensuring that contracts for these
services are properly planned and administered. Agencies
are required to establish controls regarding the reporting
of these contracts. In a recent audit, we determined that
the Office of the Assistant Secretary of Defense (Nuclear,
Chemical and Biological Defense Programs) provided
Government facilities and equipment to a prime contractor
and subcontractor without contracting officer approval or
offsets to reflect reduced costs in contract performance.
DoD personnel also directed contractor employees and
consultants to perform unauthorized services valued at $15.7
million, included tasks on one contract that involved
potential conflicts of interest, and used contractor
employees on a prohibited personal services basis without
the contracting officer’s knowledge to compensate for
staffing reductions.

     In summary, we recommend increased acquisition reform
focus on the services contracting area.

CONTRACTOR PENSION PLANS

     Another facet of DoD acquisition that generally
receives only limited attention is the overhead burden
associated with contractor pension and insurance plans. In
1997, we did a review to see if all recommendations in a
1993 report on oversight of contractor insurance and pension
plans were implemented. Because of the significance of
pension-related issues in business combinations, the review
focused on contractors known to have acquired or sold
business segments. Billions of dollars of contractor
pension fund assets accumulated from charges to Government
contracts continue to be exposed to undue risks.
Specifically, Government-funded pension assets must be
properly allocated during restructuring to ensure future
contracts do not bear a disproportionate share of pension
costs. Based on estimated average pension costs of $216,000
per employee, the pension fund assets, for the 15 largest
contractors, were estimated to be $100 billion. We
identified six conditions that result in unacceptable review
coverage and substantial risk to the Government and found
                                                          25


that incurred costs are improperly allocated to existing
contracts and forward pricing estimates for future contracts
are inaccurate. The Director, Defense Procurement, and the
Defense Logistics Agency agreed to take corrective action,
which we will closely monitor.

DOWNSIZING OF ACQUISITION WORKFORCE

     The acquisition workforce at DoD is undergoing a
47-percent reduction from 617,000 personnel in 1989 to
329,000 personnel in 2000. The Department is currently
considering further revisions to the number and the
definition of the acquisition workforce. Assuring the
success of acquisition reform efforts demands a leaner, more
professional, highly experienced, and trained acquisition
workforce. Unfortunately, there has been no risk assessment
or systematic determination on whether needed process
improvement, such as electronic contracting, will occur
before the personnel reductions are made. The General
Accounting Office has repeatedly reported that Defense
contract management is a high risk area. Nevertheless, both
contracting staffs and audit resources have been drastically
reduced, and further reductions are planned. At the same
time, DoD plans to increase the contracting out of numerous
functions, thus creating more contract administration
workload. The DoD also plans to increase its procurement
budgets significantly in the coming years, spending over
$350 billion for fighter and attack aircraft alone. Both
trends will increase the need for effective contract award,
administration, and audit.

     As DoD seeks to reengineer and streamline its
contracting processes, new business process techniques will
be key to accomplishing effective and efficient oversight in
the future. As we stated in a recent Semiannual Report to
Congress, however, "Instead of workforce adjustments being a
logical consequence of business process reengineering, the
personnel reductions appear to have become a reform goal in
and of themselves." Reductions to the acquisition workforce
need careful management instead of arbitrary acceleration
based on projected business process reengineering that is
only partially defined and may not occur.

     Maintaining public support for Defense programs
requires good contract management and prompt identification
of any potential fraud. As personnel reductions in the
acquisition workforce have occurred, we have also seen
reductions in programs for fraud prevention, detection, and
reporting. For example, I am very concerned about the
decrease in the number of fraud referrals that we receive
from the Defense Logistics Agency. Since 1995, the number
of referrals for procurement cases has dropped by 47
percent. This decrease is partly because the number of
personnel in the Office of General Counsel involved in fraud
                                                          26


detection and referral at the Defense Logistics Agency has
been cut from 15 to 3. As reform efforts continue to
emphasize partnering with industry, there also seems to be
less emphasis at the working level on reporting potential
fraud. While we understand the many benefits of the new
emphasis on Government/industry teamwork, the Department
should not assume that procurement fraud no longer occurs.
To the contrary, our criminal investigators report that
their proactive undercover efforts regularly reveal
significant fraudulent activity. Unfortunately, due to
ongoing downsizing, those proactive efforts are likely to be
curtailed in the future and we are concerned that DoD fraud
awareness and detection programs will be unable to
adequately protect the many taxpayer dollars that fund DoD
procurement efforts.

PROCUREMENT FRAUD THREAT

     A major focus of the Defense Criminal Investigative
Service (DCIS), the criminal investigative arm of the Office
of Inspector General, is procurement fraud. For FYs 1996
and 1997, procurement fraud investigations led to
472 criminal charges, 403 criminal convictions, 25 civil
charges, 22 civil judgments, 263 suspensions,
321 debarments, and monetary outcomes of $465.7 million.

     The following two product substitution cases illustrate
the types of procurement fraud DCIS investigates.

     Just last month, a company was indicted for allegedly
falsifying quality assurance testing of high-reliability
semiconductors used in military and space applications. The
company allegedly falsified quality assurance testing and
data supplied to customers. The semiconductors are used in
the Army Commanche helicopter, the Navy F/A-18 fighter
aircraft, A/V-8B Harrier aircraft, the space shuttle, space
station Freedom and several military and commercial
satellites. The cost for rescreening, removing, and
replacing these semiconductors is $30 million for the Air
Force, $10 million for the Navy, and $20 million for the
National Aeronautics and Space Administration.

     In another case, the contractor under four separate
contracts delivered defective lifeboats to the Navy. Not
only did the lifeboats fail to meet contractual
specifications, but tests performed by the Federal Bureau of
Investigations laboratory determined that the nonconforming
lifeboats were dangerously unsafe when used for their
intended purpose. The loss to the Navy was $20.9 million,
including $4 million to remove the unsafe lifeboats from
service. The contractor pled guilty to one count of
conspiracy to defraud the United States and one count of
obstruction of justice and was sentenced to 5 years
probation. A civil settlement of $21.2 million was reached
                                                          27


on charges of violations of the False Claims Act, breach of
contract and unjust enrichment.

     Many advocates of drastic changes in Government
acquisition practices are unaware of, or choose to ignore,
the fact that procurement fraud remains a threat to the DoD
and the U.S. taxpayer. We must never convey the impression
that we are becoming in any way tolerant of criminal
activity.

LEGISLATIVE PROPOSALS

     My office has also sought to provide constructive
advice in reviewing, commenting on and helping the
Department draft hundreds of legislative proposals related
to acquisition, logistics, and financial reform issues. The
other DoD components and we have not always agreed, but our
views are always considered.

     Today, I wanted to comment on two legislative issues
that the Senate may consider this year or in the future:
repeal of certain contract fee limitations and amendments to
the False Claims Act.

REPEAL OF FEE LIMITATIONS

     The Department has proposed the Defense Reform Act of
1998 to implement some of the recommendations in the Defense
Reform Initiative Report. We are not opposed to most of the
proposed Act; however, we disagree with a section that
proposes repeal of the fee limits on cost contracts.
Specifically, the proposal would eliminate the 15-percent
fee limit on cost-plus-fixed-fee (CPFF) contracts for
experimental, developmental, or research work, the 6-percent
fee on CPFF contracts for architectural or engineering (A&E)
services, and the 10-percent fee limit on any other types of
CPFF contracts.

     We have disagreed with similar proposals over the last
7 years. In FYs 1996 and 1997, there were about $4.1
billion worth of A&E contracts. The fee limitations on A&E
contracts should be retained because the statute reasonably
limits how much the DoD can spend to design projects and
prevents overspending on design efforts to the detriment of
actual construction. Critics claim that the low fees result
in A&E work that causes multiple design changes and contract
modifications during construction. We looked at 35
completed military construction projects valued at $282
million to see whether changes to contracts were needed
because of inadequate A&E design work. We did not identify
such problems. Critics also claim that fee limits
discourage competition, yet 84 percent of A&E contract
awards had multiple bidders and we simply saw no proof of
this contention.
                                                          28



     The fee limitations on CPFF contracts provide a
reasonable framework for the contracting officer to use in
negotiating CPFF contracts and still allow flexibility to
reward contractors according to different risk situations.
Contractors have less financial risk on level-of-effort and
completion type CPFF contracts than any of the other
contract types. Eliminating the statutory limitations on
fees for CPFF contracts would likely result in varying
interpretations by contracting officers and higher fees on
some CPFF contracts. In FYs 1996 and 1997, the DoD awarded
about $57 billion of cost-type contracts, of which about
$29 billion were CPFF contracts. Also, contracting officers
often apply the 10 and 15 percent limitations as maximum
fees on CPIF contracts (about $5.7 billion in FYs 1996 and
1997) and cost-plus-award-fee contracts (about $25.7 billion
in FYs 1996 and 1997). Thus, a lot of contracts will be
affected. For example, if the fee limit had been removed
and contract fees had been increased by 1 percent, the DoD
costs for fee type contracts would have increased by about
$570 million in 1996 and 1997.

FALSE CLAIMS ACT

     Members of industry have recently suggested changes to
the False Claims Act, Section 3729-3733 of Title 31 United
States Code. The Act has been an invaluable tool in the
fight against fraud in government contracting and I
vigorously oppose proposals which would significantly raise
the required standard of proof and decrease the amount of
applicable penalties involved in False Claims Act cases.

     Some of those who have called for changes in the Act
claim that commercial contractors will not do business with
the Government because they fear that if they make a simple
mistake and submit incorrect or erroneous documentation to
the Government they will be treated like criminals and
accused of defrauding the Government. They argue that
innocent mistakes will unfairly subject them to the
penalties and treble damages available under the False
Claims Act.

     I note that we have seen no evidence of such misuse of
the statute from those making these arguments. Secondly,
their argument ignores the clear reading of the statute.    A
simple mistake does not amount to a false claim subject to
the False Claims Act. The Act requires a knowing submission
of a false or fraudulent claim; the knowing use of a false
record or statement to get a false or fraudulent claim paid;
or a conspiracy to defraud the Government by knowingly
getting a false or fraudulent claim paid. Knowing and
knowingly are specifically defined in the statute to require
that a person, with respect to the information, (1) has
actual knowledge of the information, (2) acts in deliberate
                                                          29


ignorance of the truth or falsity of the information, or (3)
acts in reckless disregard of the truth or falsity of the
information.

     Proof of either deliberate ignorance or reckless
disregard of the truth requires far more than evidence of a
simple mistake. In fact, such conduct is considered so
serious and so difficult to prove that the courts have found
it sufficient when proven beyond a reasonable doubt, to
establish the "knowledge" required for criminal convictions
under the felony provisions of the false statement statute
even without proof of actual knowledge of the falsity of the
statement.   Given that fact, Congress was clearly more than
justified in providing lesser, civil penalties under the
False Claims Act for similar conduct when proven by "a
preponderance of the evidence," the normal standard of proof
in civil cases.

     Again, the False Claims Act has been essential to our
efforts to combat procurement fraud at DoD.   According to
the Civil Division of the Department of Justice,
$844,714,737 was collected during the last 5 years (FY93-97)
as a result of DoD investigations of False Claims Act
violations.

BENEFITS OF DEFENSE CONTRACT AUDIT AGENCY

     Along those same lines, I want to touch on several
other topics that relate to the future of government
oversight efforts. I am concerned by the perceptions still
held by some regarding the contributions of Government
auditing of contracts in the new reform environment.

     The Defense Contract Audit Agency (DCAA) is often
unfairly criticized, especially by contractors, for not
being in step with acquisition reform. In fact, they have
been one of the leaders in reform in the Department, despite
the fact that they are being drastically downsized
(44 percent and 3,150 positions between FY 1990 and
FY 2002). To accommodate those cuts, DCAA has reduced the
size of Headquarters and regional offices, consolidated
field audit offices, reduced the number of middle management
positions, doubled the supervisory span-of-control, and
significantly improved productivity. DCAA has supported
numerous acquisition reform initiatives and undertaken
significant business process reengineering in order to
achieve this downsizing without negatively impacting its
mission. Notable efforts included significant improvements
in risk management, supporting Integrated Product Teams and
the Single Process Initiative, and leading reinvention
laboratories on oversight reduction and parametric cost
estimating.

     Audits by the DCAA are one very important means of
                                                          30


making sure we do not overpay for weapon systems. Over the
last three fiscal years, DCAA audits produced savings of
over $9 billion dollars. Last year alone, DCAA efforts
produced documented savings of $3.7 billion. In addition,
each year contractors subject to DCAA audit do not claim
reimbursement for over $2 billion in unallowable costs. We
believe there is a clear correlation between contractors not
claiming things like "three martini lunches", "golden
parachute" payments, and tickets to sporting events or rock
concerts and the knowledge that claimed costs will be
audited.

     There is some talk today about not obtaining cost
information under any circumstances; eliminating cost
principles, cost accounting standards, and contract audits;
and even returning to the simple--but disastrous--1980’s
practice of fixed price contracts for research and
development. I support adopting reasonable commercial
approaches when there is a healthy competitive marketplace.
However, when we are buying unique military weapons from a
few dominant suppliers, we must recognize that we cannot
naively rely on competitive market forces that do not exist.
In the absence of market forces, any prudent buyer, public
or private, would want objective verification that what is
paid is reasonable. In those circumstances, the Department,
entrusted with billions in taxpayer dollars, has a clear
obligation to act as an "informed consumer" to the greatest
degree possible. Blind faith reliance on a non-existent
market would not likely produce the over $5 billion in
annual benefits we now get because of DCAA audit work.

     There are unique risks to both contractors and the
Government when designing and producing complex and high-
cost military weapon systems. This has been recognized for
decades. These risks necessitate certain safeguards.
Recognition of those risks led Congress and policy makers to
enact the Truth in Negotiations Act, to adopt flexibly-
priced contracts, to promulgate cost principles, and to
develop cost accounting standards. In each instance,
Congress required that auditing steps be employed in support
of these safeguard approaches. Auditing is, after all,
simply verification. Prudent expenditure of public funds
requires that where competitive forces can’t be trusted to
yield a fair price, alternative protections must be employed
and the results verified.

     If anything, the risks may be greater today because
there is such market dominance by a few very large
suppliers. In this environment, getting cost information
and maintaining audit rights is a prudent business practice.
Failure to do so will be very costly for the Department and
ultimately the taxpayer.

BENEFITS OF THE TRUTH IN NEGOTIATIONS ACT
                                                          31



     The Truth in Negotiations Act, first tested in concept
during World War II and then enacted into law in 1962, has
long proven to be a highly effective tool for assuring the
reasonableness of weapon systems prices. I want to say a
few positive words about the Act because it is often
criticized, unfairly in my mind, by contractors and some
other observers of Government acquisition practices. During
considerations of the 1994 and 1996 acquisition law changes,
the Truth in Negotiations Act was oftentimes used as an
example of outdated and unnecessary procedures. There was a
consensus that the Act needed some changes and it was
modified and updated by the Congress in 1994 and 1996. The
Act is still serving the Department well, despite its
critics.


     The Act’s cost and pricing data requirements only apply
to high dollar value, negotiated procurements where the
normal pricing constraints of the competitive marketing
place do not produce adequate price competition. In
FY 1997, about 53,000 contractual actions, valued at about
$46.3 billion, were subject to the Truth in Negotiations
Act. The Act simply requires contractors to provide to the
government current, accurate, and complete cost and pricing
data - the same type of data that any efficient contractor
is already generating for its internal price negotiations
purposes. It permits both the contractor and the government
negotiators to be in a position to negotiate fair and
reasonable prices based on the same truthful pricing data.

     We believe the Act has significantly reduced contract
prices over the years, freeing up funds to help meet other
critical DoD readiness and weapon system procurement needs.
The FY 1995 TASC/Coopers and Lybrand Study of Procurement
Oversight Costs stated that the Truth in Negotiations Act
increases contract prices by 1.3 percent. The study only
included ten contractors and can not be extrapolated
reasonably to all contracts. In response to the study, the
Department looked at how the Act was being applied in
regulations and actual processes, and subsequently initiated
procedural changes and education to make its application
less onerous and more efficient. A DoD process action team
also did a review of the cost and benefits of the Act and
reached quite different conclusions. They determined that,
in FY 1994 alone, the Act provided $2 billion in benefits
and the benefits exceeded the costs by 267 percent.

     Prior to this hearing, we updated the cost and benefit
analysis of the Act for FY 1997. We estimate that the Act
contributed to the identification of about $2.1 billion in
benefits, which exceeded both Government and contractor
costs by 310 percent. This is just the tip of the iceberg.
Most cost savings from the Truth in Negotiations Act are
                                                          32


achieved from the deterrent effect that encourages most
sole-source contractors to be open and fair. Because most
contractors are complying with the Act and are providing the
Government with current, accurate, and complete certified
cost or pricing data, overall contract prices are being held
down to a lower level than they would be if the Act did not
exist or were weakened.

     We should not forget that commercial items have always
been effectively exempted from the Truth in Negotiations
Act. Fixed-price purchases of commercial items at market
prices do not carry the risks that the Act protects against.
The recent statutory revisions to the Act ensure that the
Act is employed only when the business risk justifies it.
Further prohibitions could actually place the government
buyer at a disadvantage to the private sector in obtaining
fair and reasonable prices. Many private sector companies
recognize the importance of obtaining cost data and audit
rights when confronted with sufficient pricing risk.

     The push to eliminate the requirement for cost or
pricing data by contractors is generally based on the
purported cost of preparing such data. It has been our long
held view that contractors do not have a legitimate argument
that developing such data is too costly. All well managed
companies employ cost accounting practices sufficient to
determine the cost of goods or services sold. Rather,
contractors object to sharing that data with Government
negotiators since this deprives them of the advantage of
exclusive knowledge.

     Making sure that contractors do not use superior
knowledge to make excessive profits is precisely why
Congress passed the Truth in Negotiations Act. The Act
ensures a "level playing field." Clearly, contractors have
a responsibility to shareholders to make a profit, and the
Act is not a law to prevent this. The Act helps ensure the
contractor makes a reasonable profit, not a windfall profit
at taxpayers' expense. The recent experience on spares
procurements, discussed earlier in this statement, has
demonstrated that some contractors that have recently
converted from cost-based pricing to commercial pricing have
significantly raised prices. While market-based pricing is
still justified in many of the cases, these experiences
point out the need to move cautiously, especially in sole-
source situations. This is particularly true today when we
find ourselves increasingly dependent on a few dominant
suppliers.
                                                          33



REDUCTIONS IN THE OFFICE OF THE INSPECTOR GENERAL

     Acquisition reform will not reach its full potential if
essential management controls are weakened to the point
where risk becomes unmanageable. As I have reported to the
DoD and Congress on several occasions, including the last
three IG semiannual reports to the Congress, I am very
concerned that ongoing budget cuts are compromising the
adequacy of audit and investigative coverage of DoD high
risk areas.

     The Office of the Inspector General is being reduced
from 1,620 workyears in FY 1995 to 1,059 workyears in
FY 2001. The number of auditors is expected to be cut from
619 in FY 1995 to 393 in FY 2001, and the number of
investigators is expected to decrease from 373 to 277. To
accommodate that downsizing, the OIG has already undergone
two reorganizations since 1995, eliminating administrative
inefficiencies and efforts in areas that while valuable, are
not essential to our statutory mission. We have been also
attempting to offset those cuts through productivity
improvement. For example, our average time to perform
audits decreased by 47 percent, the average cost per audit
decreased by 46 percent and the average time to prepare our
draft reports decreased by 53 percent. We have also created
joint planning teams with the Service Audit agencies in
areas such as acquisition, logistics, and finance to improve
planning and eliminate any possible duplication and overlap
in work.

     Our audit workload is growing from required work driven
by the Chief Financial Officers Act, congressional requests,
management requests, the Government Performance and Results
Act, the Clinger/Cohen Act, Year 2000 Conversion, required
audits in the annual Authorization and Appropriation Acts,
and reviews required under Office and Management Budget
Circular No. A-76 on contracting out Government functions.
As mentioned earlier, we have also been working on numerous
process action teams with Department managers and this is a
new workload. We can no longer overcome increasing workload
with productivity increases while continuing to downsize.
If in 2001 you invite the Office of the Inspector General to
a hearing such as the one today, we may not have much to
contribute, because audit teams covering acquisition matters
will likely be cut by up to 58 percent and procurement fraud
investigators by up to a third.

     Also, given the extent of the planned downsizing, we
will not be able to provide the prompt attention to
congressional requests we currently do. For investigations,
we will be forced to focus resources on safety and readiness
investigations and decrease attention to areas of high
dollar crime such as procurement and health care fraud.
                                                             34


Also, new but extremely critical areas such as computer
incursion will not be adequately addressed. Given the
vulnerability of DoD information systems, I believe it is
essential to maintain a robust audit and investigative
capability in this area, but am concerned about our
continuing ability to do so. Resource cuts will require the
realignment or closure of an additional one-fourth of our
investigations field offices, which will have a major
negative impact in some judicial districts. Our proactive
effort on fraud prevention has already been curtailed and
will be eliminated if the cuts continue. Finally,
investigative backlogs will grow.

     Maintaining public support for Defense programs
requires good contract management and prompt identification
of potential fraud, waste or mismanagement in the process.
Just the presence of auditors and investigators provides a
deterrent to fraud, waste or mismanagement of contracts. In
my opinion, inadequate investment in a sound audit and
investigative effort compounds the problem and the dangers
already facing the DoD. This is an era of turbulence and
considerable risk for the Department as it struggles with
the introduction of radically new processes, increased
stress on the workforce, reorganization, downsizing,
increased reliance on automated systems, and conflicting
priorities. Despite the progress made by reform
initiatives, there are still many problems in the
acquisition area and much work to be done. We believe sound
and realistic management efforts constructively coupled with
effective and efficient oversight are essential to the
Department’s ultimate success in this critical but very
difficult area.

     Mr. Chairman, that concludes my prepared remarks.   I
would be happy to take any questions.
